                    OFFICE OF INSPECTOR GENERAL


                          LIMITED SCOPE AUDIT REPORT
                               ON NEA GRANTS TO


                          FAMILY RESOURCES, INC.
                                          Pinellas Park, FL

                                         Report No. LS-10-01
                                          October 30, 2009




                                       REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on the
National Endowment for the Arts (NEA) website no later than three (3) days after it is made publicly available with
the approval of the NEA Office of Inspector General. Information contained in this report may be confidential. The
restrictions of 18 USC 1905 should be considered before this information is released to the public. Furthermore,
information contained in this report should not be used for purposes other than those intended without prior
consultation with the NEA Office of Inspector General regarding its applicability.
                                          INTRODUCTION

BACKGROUND
Family Resources, Inc. (Family Resources) is a private, non-profit organization dedicated to serving the
children, youth and families in Florida’s Pinellas County since 1970 and Manatee County since 1992.
Family Resources sponsors the program, Youth Arts Corps (Corps).

The Corps is a youth development, arts education and job training program that uses the fine arts to help
youth reach their potential. The Corps offers three after-school and summer arts education programs,
provides arts activities at a number of residential, recreational and juvenile justice facilities in Pinellas,
Hillsborough and Manatee counties, and offers training and technical assistance in youth arts program
development and implementation.


OBJECTIVE AND SCOPE
The objective of this limited scope audit was to determine whether the grantee:

       Fulfilled the financial and compliance requirements as set forth in the grant awards;
       Claimed project costs which were reasonable, allocable and allowable;
       Met the required match on NEA grant funds; and
       Actually accomplished the objectives for which the grants were awarded.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and other
auditing procedures that were considered necessary under the circumstances. The “Standards” require that
we obtain sufficient, competent, and relevant evidence to afford a reasonable basis for our findings and
conclusions.

During the period under review, the organization had four grants from the National Endowment for the Arts
(NEA) totaling $145,000 (see Appendix A). Our audit was limited to those four grants in which NEA
funds had been drawn down and costs had been reported.


PRIOR AUDIT COVERAGE
During the past five years, the NEA Office of Inspector General (OIG) has not issued any audit reports on
Federal grants awarded to Family Resources, Inc. As of our site visit on July 27, 2009, the most recent
issued independent auditor’s report on Family Resources financial statements was for the years ended
June 30, 2008 and 2007. The audit was conducted by Lewis, Birch and Ricardo, LLC, which issued an
unqualified, (clean) opinion.


                                                        2
                                        RESULTS OF AUDIT
Our audit concluded that Family Resources did not accurately report expenditures on its Financial Status
Report (FSR). Family Resources also did not have the required Section 504 self-evaluation on file.
Details are presented in the following narratives.


FINANCIAL MANAGEMENT
Family Resources did not report actual expenditure amounts for selected Grant No. 07-5100-8145. Total
outlays reported on the FSR were $1,051,647, however, during our site visit we were presented with a
listing of project expenditures totaling $1,064,568. The NEA instructions for completing the FSR state that
“total actual project outlays” are to be reported.

For Grant No. 04-6200-1015, Family Resources charged $53.67 for entertainment and $459.54 for the
purchase of a pool table. Under OMB Circular A-122, costs for entertainment1 or costs not reasonable to
the project2 are unallowable. For Grant No. 06-5100-8010, $386.69 was charged for entertainment and
$34.77 for fundraising3, which are unallowable under OMB Circular A-122.

Based on the findings above, we are disallowing and reducing costs claimed under Grant No. 04-6200-1015
by $513.21, and costs claimed under Grant No. 06-5100-8010 by $421.46. Since Family Resources’
allowable expenditures more than exceeded its matching requirements under both grants, we are not
requiring any additional action to support these grants.

We recommend that procedures be developed and implemented to ensure that actual and allowable costs
are reported on the final FSR. Those procedures should ensure that employees, who prepare the FSRs, are
familiar with the cost principles of OMB Circular A-122.


SECTION 504 SELF-EVALUATION
Family Resources did not have the required Section 504 self-evaluation on file. As noted in NEA’s
General Terms, “A Section 504 self-evaluation must be on file at your organization.” A Section 504 Self-
Evaluation Workbook is available online at www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to enter facilities
and participate in programs and activities. It does not require that every part of every facility or program be
accessible. The important considerations are that individuals with disabilities have the same opportunities

1
  Office of Management and Budget (OMB), Circular A-122, revised May 10, 2004, Cost Principles for Non-Profit
Organization, Attachment B, Para. 14., Entertainment Costs.
2
  OMB Cir. A-122, Attachment A, Para. 3, Reasonable Costs.
3
  OMB Cir. A-122, Attach. B, Para. 23, Fundraising.
                                                         3
in employment, the same opportunities to enter and move around in facilities, the same opportunities to
communicate and the same opportunities to participate in programs and activities as non-disabled people.
Further, it is important to offer employment, programs, and services in settings that are integrated rather
than to segregate individuals with disabilities with special programs.

We are recommending that Family Resources conduct a Section 504 self-evaluation.


EXIT CONFERENCE
An exit conference was held with the Program Director July 28, 2009 and a follow-up telephone call on
October 29, 2009. The Program Director concurred with our findings and recommendations.



                              RECOMMENDATIONS

We recommend that Family Resources:

   1. Develop and implement procedures to ensure that only accurate and allowable costs are reported on
      the final Financial Status Report (FSR). Those procedures should ensure that the employees, who
      prepare the FSR, are familiar with the cost principles of OMB Circular A-122.

   2. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act of 1973, as
      amended. (A copy of the self-evaluation will be provided to NEA’s Office of Civil Rights/EEO.)




                                                      4
                                                                                                            Appendix A

                                     FAMILY RESOURCES, INC.
                       SCHEDULE OF GRANTS SELECTED FOR AUDIT


       Grant                                                 Reported
      Amount       Grant Number         Grant Period          Costs               Project Description

                                                                             Purpose was to support the consortium
    $ 70,000      04-6200-1015         6/1/04-5/31/06       $ 575,182
                                                                             project, Youth Arts Corps.

                                                                             Purpose was to support Youth Arts
    $ 20,000      06-5100-8010         6/1/06-5/31/07       $ 797,471
                                                                             Corps

                                                                             Purpose was to support Youth Arts
    $ 40,000      07-5100-8145         6/1/07-5/31/08       $1,051,647       Corps, a consortium partnership with the
                                                                             Gulf Coast Museum of Art

                                                                             Purpose was to support Youth Arts
    $ 15,000      08-5100-8077        6/1/08 - 11/30/09*    $     10,570**   Corps in consortium with the Salvador
                                                                             Dali Museum

    $145,000




* Original grant end date was extended from 5/31/09 to 11/30/09
** As of 5/31/09




                                                              5
